No. 20-299
In the

Supreme Court of the United States
Milliman, Inc.,
Petitioner,
v.
James J. Donelon, Commissioner of
Insurance for Louisiana, in His Capacity
as Rehabilitator of Louisiana Health
Cooperative, Inc.,
Respondent.
On Petition for a Writ of Certiorari to
the Louisiana Supreme Court

BRIEF IN OPPOSITION
J. E. Cullens, Jr.,
Counsel of Record
A ndrée Matherne Cullens
Darrel J. Papillion
S. Layne Lee,
La. Bar #17689
Walters, Papillion, Thomas,
Cullens, LLC
12345 Perkins Road
Baton Rouge, LA 70810
(225) 236-3636
cullens@lawbr.net
Counsel for Respondent
301077

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether Petitioner presents compelling reasons
to grant its Petition to review a unanimous Louisiana
Supreme Court decision that correctly addressed and
resolved the federal question of whether certain state
laws governing post-receivership insurance proceedings
reverse preempt the Federal Arbitration Act (“FAA”)
under the McCarran-Ferguson Act (“MFA”).

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.	RULE 10 CONSIDERATIONS SUPPORT
DENIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
II.	LOUISIA NA’S RLCA, INCLUDING
ITS POST-RECEIVERSHIP VENUE
PROVISION, RE GULATES T H E
BUSINESS OF INSURA NCE A ND
PROHIBITS THE ENFORCEMENT
OF A N Y PRIVATE FORU M
SELECTION CLAUSE, INCLUDING
A N ARBITRATION AGREEMENT,
T H AT FRUSTRATES STATE
	INSURANCE LAW  . . . . . . . . . . . . . . . . . . . . . . . 7
A. The Interplay Between the FAA and the
MFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. Donelon Correctly Applied Federal Law
to Conclude that Louisiana’s RLCA,
including § 2004, Reverse Preempts the
FAA Under the MFA . . . . . . . . . . . . . . . . . . 14

iii
Table of Contents
Page
III. N O CO M PELLI N G SPLIT OF
AUT HORITY RE G AR DI NG T H E
INTERPLAY BETWEEN THE FAA
	AND THE MFA EXISTS  . . . . . . . . . . . . . . . . .  17
A. Donelon and Ommen Do Not Conflict—
Rule 10(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
B. Cases Cited by Milliman Do Not
Reflect a Split of Authority Between
Federal Circuit Courts—Rule 10(a)  . . . . . 18
C. The Louisiana Supreme Cour t’s
Analysis of the Interplay Between the
MFA and the FAA Accords with Fabe—
Rule 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
D. Donelon Accords with Federal Circuit
Courts and State Courts of Last
Resort Which Have Addressed the
Immediate Issue—Rule 10(b) . . . . . . . . . . . 25
1.

Fifth Circuit—Munich v. Crawford . . 25

2. Tenth Circuit—Davister v. United
Republic . . . . . . . . . . . . . . . . . . . . . . . . . 27
3.

Second Ci rcuit — Stephens v.
American . . . . . . . . . . . . . . . . . . . . . . . . 29

4. Other Favorable State Court Cases  . 30

iv
Table of Contents
Page
IV.	OT H ER A D E Q UATE A N D
I N D EPE N D E N T STATE LA W
GROUNDS EXIST TO AFFIRM THE
	ULTIMATE RULING IN DONELON  . . . . . . 30
A. The Risk of Rendering an Advisory
Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
B. According to State Law, the Direct
Benefit Estoppel Doctrine Does Not Bind
the Commissioner, a Non-Signatory,
to Milliman’s Arbitration Contract  . . . . . . 32
C. According to State Law, by Choosing
Ne w York L aw R e g a r d i ng t he
Enforcement of their Agreement,
Milliman and LAHC Agreed Not to
Arbitrate Post-Receivership Disputes
Involving the Commissioner  . . . . . . . . . . . 34
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

v
TABLE OF CITED AUTHORITIES
Page
Cases
AmSouth Bank v. Dale,
386 F.3d 763 (6th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 22
Bennett v. Liberty Nat. Fire Ins. Co.,
968 F.2d 969 (9th Cir. 1992) . . . . . . . . . . . . 6, 15, 18, 21
Citizens Bank v. Alafabco, Inc.,
539 U.S. 52 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Davister Corp. v. United Republic Life Ins. Co.,
152 F.3d 1277 (10th Cir. 1998), cert. denied,
525 U.S. 1177 (1999)  . . . . . . . . . . . . . . . . . . . 5, 6, 27, 28
Diamond Waterproofing Systems, Inc. v. 55
Liberty Owners Corp.,
826 N.E.2d 802 (N.Y. Ct. App. 2005)  . . . . . . . . .  34-35
Doctor’s Associates, Inc. v. Casarotto,
517 U.S. 681 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Donelon v. Shilling,
--- So. 3d ---, 2020 WL 2079362 (La. 4/27/20) . passim
Duhon v. Activelaf, LLC,
2016-0818 (La. 10/19/2016); --So.3d.--; 2016 WL
6123820, cert. denied, 137 S.Ct. 2268 (2017) . . . . . . 32
E.E.O.C. v. Waffle House, Inc.,
534 U.S. 279 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vi
Cited Authorities
Page
Ernst & Young, LLP v. Clark,
323 S.W.3d 682 (Ky. 2010), cert. denied,
562 U.S. 1218 (2011)  . . . . . . . . . . . . . . . . . . . . . . 5, 6, 30
Grode v. Mutual Fire, Marine and Inland Ins. Co.,
8 F.3d 953 (3d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . . 22
Herb v. Pitcairn,
324 U.S. 117 (1945)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Knickerbocker Agency, Inc. v. Holz,
149 N.E.2d 885 (N.Y. Ct. App. 1958) . . . . . . . . . . 10, 30
Lac D’Amiante du Quebec, Ltee v.
American Home Assurance Co.,
864 F.2d 1033 (Cir. 1988)  . . . . . . . . . . . . . . . . . . . . . . 10
LeBlanc v. Bernard,
554 So. 2d 1378 (La. App. 1st Cir. 1989), writ
denied, 559 So. 2d 1357 (La. 1990)  . . . . . . . . . . . . . . 33
Mastrobuono v. Shearson Lehman Hutton, Inc.,
514 U.S. 52 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Michigan v. Long,
463 U.S. 1032 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Milliman v. Roof,
353 F. Supp. 3d 588 (E.D. Ky. 2018)  . . . . . . . . . . . . . 23

vii
Cited Authorities
Page
Munich American Reinsurance Co. v. Crawford,
141 F.3d 585 (5th Cir. 1998), cert. denied,
525 U.S. 1016 (1998)  . . . . . . . . . . . . . . . . . . . . . . passim
N.J.R. Associates v. Tausend,
973 N.E.2d 730 (N.Y. Ct. App. 2012) . . . . . . . . . . . . . 35
Ommen v. Milliman,
941 N.2d 310 (Iowa 4/3/20) . . . . . . . . . . . . . . . . . passim
Prudential Ins. Co. v. Benjamin,
328 U.S. 408 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Quackenbush v. Allstate Ins. Co.,
121 F.3d 1372 (9th Cir. 1997) . . . . . . . . . . . . . . . .  21-22
Richardson v. Eighth JDC,
454 P.3d 1260 (Nev. 2019) . . . . . . . . . . . . . . . . . . . 18, 23
Riley v. Kennedy,
553 U.S. 406 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
SEC v. National Securities, Inc.,
393 U.S. 453 (1969) . . . . . . . . . . . . . . . . . . . . . . . . .  7, 10
Smith Barney, Harris Upham & Co., Inc. v.
Luckie, 647 N.E.2d 1308, (N.Y. Ct. App. 1995),
cert. denied, 516 U.S. 811 (1995) . . . . . . . . . . . . . . . . 34
State of Idaho ex rel. Soward v. United States,
858 F.2d 445 (9th Cir. 1988), cert. denied,
490 U.S. 1065 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . 21

viii
Cited Authorities
Page
Stephens v. American Int’l Ins. Co.,
66 F.3d 41 (2d Cir. 1995) . . . . . . . . . . . . . . . . . . 6, 10, 29
Suter v. Munich Reinsurance Co.,
223 F.3d 150 (3d Cir. 2000) . . . . . . . . . . . . . . . . . passim
Taylor v. Ernst & Young, LLP,
958 N.E.2d 1203 (Ohio 2011)  . . . . . . . . . . . . . . . . . . . 33
Union Labor Life Ins. Co. v. Pireno,
458 U.S. 119 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States Department of Treasury v. Fabe,
508 U.S. 491 (1993)  . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
9 U.S.C. § 1, et seq. (“FAA”)  . . . . . . . . . . . . . . . . . . passim
9 U.S.C. § 205  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
11 U.S.C. § 109  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
15 U.S.C. § 1011, et seq. (“MFA”)  . . . . . . . . . . . . . . passim
15 U.S.C. § 1012(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Black’s Law Dictionary 1236 (6th ed. 1990)  . . . . . . . . . . 8
La. R.S. 22:2(A)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ix
Cited Authorities
Page
La. R.S. 22:254(G)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
La. R.S. 22:2001, et. seq. (“RLCA”) . . . . . . . . . . . . passim
La. R.S. 22:2004(A)  . . . . . . . . . . . . . . . . . . . . . . . . . passim
La. R.S. 22:2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
N.J. Stat. Ann. § 17:30C-2 . . . . . . . . . . . . . . . . . . . . . 19, 20
Sup. Ct. R. § 10 (“Rule 10”) . . . . . . . . . . . . . . . . . . . passim

1
STATEMENT OF THE CASE
This lawsuit arises out of the creation, regulation, and
failure of Louisiana Health Cooperative, Inc. (“LAHC”),
a Louisiana Nonprofit Corporation that holds a health
maintenance organization (“HMO”) license from the
Louisiana Department of Insurance (“LDI”). LAHC
was a Consumer Operated and Oriented Plan (“CO-OP”)
established by the Patient Protection and Affordable Care
Act (“ACA”). Incorporated in 2011, LAHC eventually
applied for and received more than $65 million in loans
from the U.S. Department of Health and Human Services,
Centers for Medicare and Medicaid Services (“CMS”).
Pursuant to the ACA, these loans were to be awarded
only to entities that demonstrated a high probability of
becoming financially viable. The LDI placed LAHC in
rehabilitation in September 2015 and a Receiver was
appointed to take control of the failed Louisiana CO-OP.
The Commissioner1 originally sued approximately
twenty (20) defendants who are allegedly responsible for
the catastrophic failure of LAHC. As alleged and pled
by the Commissioner, LAHC failed miserably after only
eighteen months in operation due to the actionable conduct
of the named defendants, including Milliman. Because of
defendants’ gross negligence, as of December 31, 2015,
LAHC had lost more than $82 million.
Milliman provided professional actuarial services to
LAHC from approximately August 2011 to March 2014.
Milliman’s services included preparing the feasibility
1. “Commissioner” refers to the Plaintiff in the underlying
suit and the Respondent here, James J. Donelon, Commissioner of
Insurance for the State of Louisiana in his capacity as Rehabilitator
of LAHC, through his duly appointed Receiver, Billy Bostick.

2
study supporting LAHC’s loan application to CMS and
setting LAHC’s 2014 premium rates. Milliman held itself
out as having expertise to provide actuarial services and
advice to health insurers like LAHC. However, Milliman
failed to produce a feasibility study that was accurate
and reliable and, further, failed to set premium rates for
LAHC that were accurate and reliable. Milliman’s advice
and financial reports concerning LAHC’s funding and
premium needs negligently misrepresented the HMO’s
true financial condition to LAHC and anyone else who
relied upon them, including the LDI regulators. For
example, despite Milliman projecting a modest loss of
about $1.9 million in 2014 in its loan application to CMS,
LAHC actually lost about $20 million in its first year
in business. And although LAHC projected turning a
modest profit of about $1.7 million in 2015, it actually lost
more than $54 million by the end of that year.
In response to the Commissioner’s suit, Milliman
filed a motion demanding that all of the Commissioner’s
claims against it be referred to arbitration based
upon an arbitration clause found in the Consulting
Services Agreement between Milliman and LAHC (the
“Agreement”). After extensive briefing and extended
oral argument in the Louisiana courts, on April 27,
2020, a unanimous Louisiana Supreme Court denied
Milliman’s motion seeking arbitration and ruled that “the
Louisiana Rehabilitation, Liquidation, and Conservation
Act, specifically Louisiana Revised Statutes 22:2004(A),
prevents the Commissioner from being compelled to
arbitration.” Donelon v. Shilling, --- So.3d ---; 2020 WL
2079362 (La. 4/27/20); App. 19a. 2
2. A copy of this opinion is found in the Appendix (“App.”) to
Milliman’s Petition for a Writ of Certiorari (“Petition”) filed herein,

3
On April 3, 2020, the Iowa Supreme Court ruled that
Milliman’s arbitration agreement with the Iowa CO-OP
was enforceable against the Iowa Liquidator. Ommen v.
Milliman, 941 N..2d 310 (Iowa 4/3/20) (“Ommen”). On
August 28, 2020, the Iowa Liquidator filed its Petition for
Writ of Certiorari with this Court seeking review of the
Iowa Supreme Court’s decision in Ommen. Doc. No. 20249. Milliman filed its “Brief in Opposition” to the Iowa
Liquidator’s Petition on October 28, 2020.
ARGUMENT
I.

RULE 10 CONSIDERATIONS SUPPORT DENIAL

Milliman’s Petition stretches cases well outside
their factual bases and beyond their legal holdings to
manufacture a nonexistent split of authority, relies upon
a claims-priority case not involving the FAA to allege a
failure to follow this Court’s precedent, and neglects to
recognize and advise this Honorable Court that important
state law issues make this case an inappropriate one for
review. Milliman’s argument essentially boils down to
its contention that the Louisiana Supreme Court erred
in applying established federal precedent. Milliman’s
Petition presents neither a real or compelling conflict of
opinion nor an unsettled question of federal law worthy
of review.
Despite Milliman’s insistence to the contrary, Donelon
and Ommen do not conflict on the federal question
presented here. Significantly, the core issue addressed
at 1a-21a. Respondent will refer to this opinion as Donelon and
will cite to it as “App. # a.”

4
in Ommen revolved around whether, according to Iowa
state law, the Liquidator could disavow a pre-receivership
agreement containing an arbitration clause, not whether a
post-receivership venue provision in the Iowa Liquidation
Act prohibited the enforcement of an arbitration clause
against the Liquidator. The Iowa Supreme Court in
Ommen did not reach the federal question presented
here: whether any Iowa law “regulating the business of
insurance” prohibited arbitration in post-receivership
proceedings and reverse preempted the FAA under the
MFA. Unlike the Iowa Supreme Court, however, the
Louisiana Supreme Court first interpreted Louisiana’s
comprehensive regulatory scheme, including La. R.S.
22:2004(A), to mandate the consolidation of all postreceivership actions into single, state court venue; only
after this threshold issue of state law was resolved did
the Louisiana Supreme Court address the interplay
between the MFA and the FAA to reach its correct ruling
in Donelon. Rule 10(b) considerations, namely that no
state court of last result has decided an important federal
question in a way that conflicts with either a decision of
another state court of last resort or a United States court
of appeals, do not support Milliman’s Petition and are
discussed in detail in Section III.A, infra. See Sup. Ct.
R. 10(b) (“Rule 10”).
A lthough Milliman contends that there is an
“irreconcilable conflict on the question presented,” in fact,
all federal circuit courts confronted with the question
presented here have decided it in the same way as the
unanimous Louisiana Supreme Court did in Donelon: the
MFA reverse preempts the FAA when a state law provides
for an exclusive venue provision or mandates that all
post-receivership actions be consolidated in a single, state

5
court. Indeed, this Court has three times considered, and
three times denied, similar petitions for writ of certiorari
on virtually the same question and arguments presented
here. See Davister Corp. v. United Republic Life Ins. Co.,
152 F.3d 1277 (10th Cir. 1998), cert. denied, 525 U.S. 1177
(1999); Munich Am. Reinsurance Co. v. Crawford, 141
F.3d 585 (5th Cir. 1998), cert. denied, 525 U.S. 1016 (1998);
Ernst & Young v. Clark, 323 S.W.3d 682 (Ky. 2010), cert.
denied, 562 U.S. 1218 (2010). Rule 10(a) considerations
do not support Milliman’s Petition and are discussed in
detail in Section III.B, infra.
Contrary to Milliman’s suggestion, the Donelon
opinion is consistent with this Court’s ruling in United
States Department of Treasury v. Fabe, 508 U.S. 491
(1993), and the decisions of the Second, Fifth, and Tenth
Circuits, which have considered the immediate federal
issue and ruled the same way as the Louisiana Supreme
Court: that a state’s statutory scheme regarding postreceivership proceedings should be considered insurance
regulation under the MFA. These Rule 10 considerations
do not support Milliman’s Petition and are discussed in
detail in Sections III.C and III.D, infra.
Moreover, Milliman’s request for a “uniform national
answer” to its question is better directed to the United
States Congress, not this Honorable Court. Petition, p. 6.
According to Milliman’s Petition, currently about 25 states
prohibit pre-receivership forum selection clauses, like
Milliman’s arbitration clause here, to be enforced against
an insurance receiver in post-receivership proceedings.
The other 25 states do not prohibit such forum selection
clauses from being enforced in post-receivership
proceedings. So, as it stands now, about half of the states

6
(like Iowa) would allow Milliman’s arbitration clause to
be enforced against a Commissioner, and about half (like
Louisiana) would not. Each state does it differently.
This is how it should be. Our system of federalism, as
manifested in the current interplay between the MFA
and FAA and as supported by an accurate reading of
Fabe, Munich, Stephens, Davister, Suter, Bennett, Clark,
Ommen, and Donelon, is working as it should. Milliman,
in essence, asks this Court to fix something that is not
broken. It is neither appropriate nor within this Honorable
Court’s constitutional power to create a “uniform national”
law that would, in effect, strip each state of its authority
to regulate post-receivership proceedings as it deems
appropriate pursuant to the authority reserved to it by
the MFA.
Additionally, certiorari is improvident where, as
here, granting Milliman’s Petition to review a question of
federal law will not resolve the ultimate issue of whether
Milliman’s arbitration agreement is enforceable against
the Commissioner according to state law. Upon remand
from this Court, the Louisiana Supreme Court may
declare Milliman’s arbitration provision unenforceable as
a matter of state law, thereby not changing the ultimate
outcome in this case. These considerations are discussed
in Section IV, infra. This Court should decline Milliman’s
invitation to issue an advisory opinion.

7
II. LOUISIANA’S RLCA, INCLUDING ITS POSTR E C E I V E R S H I P V E N U E P R OV I S I O N ,
REGULATES THE BUSINESS OF INSURANCE
AND PROHIBITS THE ENFORCEMENT OF
ANY PRIVATE FORUM SELECTION CLAUSE,
INCLUDING AN ARBITRATION AGREEMENT,
THAT FRUSTRATES STATE INSURANCE LAW
Before addressing Rule 10 considerations in greater
detail, a discussion of the federal question involved in
Donelon is appropriate.
A.

The Interplay Between the FAA and the MFA

In 1925, Congress enacted the FAA, 9 U.S.C. § 1, et
seq., to reflect the United States’ acceptance of arbitration
as a permitted method of dispute resolution. This Court
currently reads the FAA as embodying a “national policy
favoring arbitration” that is, in general, grounded in
Congress’ full Commerce Clause power. See Citizens
Bank v. Alafabco, Inc., 539 U.S. 52, 56-57 (2003). The
reach of the FAA is not, however, unlimited.
Twenty years later, Congress enacted the MFA, 15
U.S.C. § 1101, et seq., in 1945 for the specific purpose of
consigning to the States broad and primary responsibility
for regulating the insurance industry. See SEC v. National
Sec., Inc., 393 U.S. 453, 458 (1969). In relevant part, the
MFA provides:
No Act of Congress shall be construed to
invalidate, impair, or supersede any law enacted
by any State for the purpose of regulating
the business of insurance ... unless such Act
specifically relates to the business of insurance.

8
15 U.S.C. § 1012(b). This affirmative declaration frees
state insurance regulation from the coercive force of the
Commerce Clause, which normally invalidates state laws
that materially burden commerce. See Prudential Ins.
Co. v. Benjamin, 328 U.S. 408, 429 (1946). Ordinarily,
federal law preempts conflicting state law by virtue of
the Supremacy Clause. See U.S. Const. art. VI, cl. 2. The
MFA reverses that effect in those cases involving state
regulation of the insurance industry. Stated simply, in the
realm of insurance regulation, state law reigns supreme.
According to its terms and this Court’s guidance, the
MFA permits a state law to reverse preempt a federal
statute only if: (1) the federal statute does not specifically
relate to the “business of insurance,” (2) the state law
was enacted for the “purpose of regulating the business
of insurance,” and (3) the federal statute operates to
“invalidate, impair, or supersede” the state law. United
States Department of Treasury v. Fabe, 508 U.S. 491, 500502 (1993). There is no question that the FAA does not
relate specifically to the business of insurance. Therefore,
the Louisiana Supreme Court only dealt with the second
and third questions of the Fabe test in Donelon.
According to this Court’s analysis in Fabe, the
category of laws enacted “for the purpose of regulating
the business of insurance” is broad and consists of those
laws “that possess the ‘end, intention, or aim’ of adjusting,
managing, or controlling the business of insurance. This
category necessarily encompasses more than just the
‘business of insurance.’” Fabe, 508 U.S. 491, 505 (quoting
Black’s Law Dictionary 1236, 1286 (6th ed.1990)). Statutes
that focus on protecting the relationship between the
insurer and insured are certainly laws regulating the

9
business of insurance. Id. at 501. So are statutes focused
on the post-receivership priority of claims scheme to the
extent they deal with policyholder interests. Id. at 505-06.
Given the facts involved in Donelon, and as is
further discussed in Section III.B, infra, the second
step of the Fabe test is clearly satisfied here. There can
be no reasonable doubt that Louisiana’s Rehabilitation,
Liquidation, Conservation Act (“RLCA”), La. R.S. 22:2001,
et seq., was enacted to regulate the business of insurance
as contemplated in the MFA. The specific Louisiana law in
question is the venue provision of Louisiana’s RLCA, La.
R.S. 22:2004(A) (“§2004”). When a Louisiana insurance
company is declared insolvent and placed into state
receivership proceedings by the Commissioner, §2004
empowers the Commissioner to choose and consolidate all
actions into a single state court. Because the consolidation
of all post-receivership actions assures a more orderly
handling of claims by preventing piecemeal litigation
in multiple forums, conflicting rulings on claims, the
unequal treatment of claimants, and the unnecessary and
wasteful dissipation of the funds of the insolvent insurer,
Louisiana’s post-receivership venue provision manifests
a purpose of protecting policyholders, creditors, and the
public at large.
According to this Court’s precedent and its analysis in
Fabe, the three criteria relevant in determining whether
a regulated practice should be considered “regulating
the business of insurance” under the MFA include
whether: (1) the practice has the effect of transferring
or spreading a policyholder’s risk; (2) the practice is
an integral part of the policy relationship between the
insurer and the insured; and (3) the practice is limited

10
to entities within the insurance industry. See Fabe, 508
U.S. at 502;Union Labor Life Ins. Co. v. Pireno, 458 U.S.
119, 129 (1982). None of these criteria is dispositive. Id.
In SEC v. National Securities, Inc., 393 U.S. 453 (1969),
this Court recognized that “whatever the exact scope” of
this term as used in the MFA, regulations relating both
to an insurance company’s “status as a reliable insurer”
and those statutes “aimed at protecting or regulating
this relationship [between the insurance company and the
policyholder], directly or indirectly are laws regulating
the ‘business of insurance.’” Id. at 568-69.
All three Pireno factors strongly indicate that
Louisiana’s post-receivership scheme regulates the
business of insurance. First, it is crucial to the relationship
between the insurance company and its policyholders for
both parties to know that, in the event of insolvency, the
insurance company will be liquidated in an organized
fashion. See Munich American Reinsurance Co. v.
Crawford, 141 F.3d 585 (5th Cir. 1998), cert. denied, 525
U.S. 1016 (1998); Stephens v. American Int’l Ins. Co.,
66 F.3d 41, 44-45 (2nd Cir. 1995); Lac D’Amiante du
Quebec, Ltee v. American Home Assurance Co., 864 F.2d
1033, 1041 n. 9 (3d Cir.1988); Knickerbocker Agency, Inc.
v. Holz, 149 N.E.2d 885, 889-891 (N.Y Ct. App. 1958).
Insurance companies are ineligible for the protections
afforded by the federal Bankruptcy Code, see 11 U.S.C.
§ 109; such protections instead are provided by state laws,
like Louisiana’s RLCA, which are shielded from federal
interference by the MFA. The experience of the federal
bankruptcy courts, which evidences the importance of
consolidating all of the assets of an insolvent company and
the claims against those assets in a single forum, supports
the legitimacy of the Louisiana scheme in protecting the

11
interests of policyholders. Louisiana’s RLCA effectively
transfers or spreads the policyholder’s risk of not being
made whole in the event of an insurance company’s
insolvency.
Second, an implicit benefit of the insurance contract
between the insurer and insured is that, in the event of
the insurance company’s insolvency, an attempt to make
the insured whole will be undertaken by placing the
insurer in receivership and administering the affairs of
the failed insurance company pursuant to Louisiana’s
RLCA. This inherent promise that the Louisiana RLCA
will control post-receivership proceedings is an integral
part of the policy relationship between the insurer and
the insured. Once in receivership, Louisiana’s RLCA vests
the Commissioner with, inter alia, all “rights of action” of
the insurer and authorizes him to file suit in a single state
court pursuant to §2004 and marshal all available assets
for the benefit of insureds (policyholders), creditors, and
the public pursuant to the RLCA. See La. R.S. 22:2008.
T h i rd, t here i s no d isput e t hat Lou isia na’s
comprehensive regulatory scheme for post-receivership
proceedings is limited to entities in the insurance industry.
It does not apply to insolvent companies generally, but
only to insolvent insurance companies. Considering the
three Pireno factors, and as correctly found by Donelon,
Louisiana’s RLCA, including §2004, were enacted for the
purpose of “regulating the business of insurance.”
Indeed, this Court in Fabe, when analyzing whether
Ohio’s post-receivership priority scheme would reverse
preempt the conflicting federal priority scheme, correctly
observed: “The Ohio statute is enacted ‘for the purpose

12
of regulating the business of insurance’ to the extent
that it serves to ensure that, if possible, policyholders
ultimately will receive payment on their claims. That
the policyholder has become a creditor and the insurer
a debtor is not relevant.” Id. at 506. As explained by
this Court in Fabe, when an insurance company fails, the
performance contemplated by the terms of the insurance
policy also fails:
Without performance of the terms of the
insurance policy, there is no risk transfer at
all. . . . The Ohio priority statute is designed to
carry out the enforcement of insurance contracts
by ensuring the payment of policyholders’ claims
despite the insurance company’s intervening
bankruptcy. Because it is integrally related to
the performance of insurance contracts after
bankruptcy, Ohio’s law is one “enacted by any
State for the purpose of regulating the business
of insurance.”
Fabe, 508 U.S. at 504. Because Louisiana’s ultimate
purpose in mandating the consolidation of all postreceivership actions into single court is to protect
policyholders, §2004 is a state law that regulates the
business of insurance under the MFA. 3
The third step of the Fabe test presents the question
of whether the application of the FAA would “invalidate,
3. As further evidence of Louisiana’s strong interest
in making sure policyholders are made whole in the event of
insolvency, Louisiana’s priority of claims statute ranks policyholder
claims ahead of general creditor claims. See La. R.S. 22:254(G).

13
impair, or supersede” provisions of a state statute
regulating insurance. Once Louisiana’s RLCA as a whole,
or §2004 specifically, is determined to be a law enacted to
regulate the business of insurance, then it logically follows
that any pre-receivership forum selection agreement which
designates a forum other than the venue determined by
§2004 will necessarily “invalidate, impair, or supersede”
Louisiana insurance law. Any contrary finding would
frustrate the orderly, comprehensive, post-receivership
scheme contemplated by Louisiana’s RLCA and §2004.
Forcing the Commissioner to arbitrate claims against
Milliman, while simultaneously litigating related claims
arising out of the failure of LAHC against numerous other
defendants in state court, would undoubtably “invalidate,
impair, or supersede” the insurance laws of Louisiana.
Significantly, Louisiana’s post-receivership venue
law does not prohibit only arbitration clauses, but rather,
§2004 prohibits all private forum selection clauses that
would thwart Louisiana’s orderly regulatory scheme.4
Milliman’s characterization of the Louisiana Supreme
4. For example, LAHC hired another actuarial firm, Buck
Global, LLC (“Buck”) in 2014, inter alia, to set the 2015 premiums
for LAHC. The Commissioner has sued Buck for its professional
malpractice and Buck remains a defendant in the pending litigation
in Louisiana state court. Buck’s contract with LAHC contained a
forum selection clause that designated New York as the only venue
for any dispute arising out of the contract. Although Buck filed
motions to have the Commissioner’s claims against it severed and
transferred to New York, the trial, appellate, and supreme court
of Louisiana all rejected Buck’s demand. Consider the very real
prejudice to the Commissioner if the claims against Milliman are
decided by a private arbitration panel, while his claims against
Buck and the other defendants are decided by the Louisiana state
court.

14
Court’s ruling as “arbitration-adverse” and part of “the
judicial hostility toward arbitration” is incorrect. Petition,
pp. 7, 31. Rather, any private contract, including but
certainly not limited to an arbitration agreement, which
would effectively nullify Louisiana’s scheme regarding
post-receivership proceedings, runs afoul of Louisiana’s
insurance regulation and the strong federal policy
embodied in the MFA.
B. Donelon Correctly Applied Federal Law to
Conclude that Louisiana’s RLCA, including
§2004, Reverse Preempts the FAA Under the
MFA
Louisiana law recognizes the inherently public purpose
of insurance regulation and gives the Commissioner broad
authority to manage, oversee, and regulate the business
of insurance from before an insurance company begins
selling insurance, during its existence, and in the event
of insolvency, until it is either rehabilitated or liquidated.
“Insurance is an industry affected with the public
interest and it is the purpose of this Code to regulate
that industry in all its phases. Pursuant to the authority
contained in the Constitution of Louisiana, the office of
the commissioner of insurance is created. It shall be the
duty of the commissioner of insurance to administer the
provisions of this Code.” La. R.S. 22:2(A)(1) (emphasis
added).
Interpreting Louisiana law regarding insolvent
insurance companies, the Louisiana Supreme Court held
that La. R.S. 22:2004(A) “is an express grant of authority
for the Commissioner to bring this suit in court, rather
than arbitration.” Donelon, App. 8a. Given that it is the

15
province of a state’s highest court to interpret that state’s
laws, and that this Court defers to a state’s interpretation
of its own law, Louisiana’s interpretation of §2004 is
controlling here. See Riley v. Kennedy, 553 U.S. 406,
425 (2008) (“A State’s highest court is unquestionably
‘the ultimate exposito[r]’of state law.”). 5 Significantly,
if Louisiana’s highest court had interpreted §2004 as
not mandating the consolidation of all post-receivership
actions into a single court, then arguably that would have
ended the reverse preemption analysis. In such a case,
there would be no need to analyze or consider the interplay
between the FAA and the MFA because enforcement of a
pre-receivership arbitration agreement would not conflict
with or impair state insurance law. Indeed, this is what
the Iowa Supreme Court decided in Ommen, the Third
Circuit decided in Suter, and the Ninth Circuit decided in
Bennett; see discussion in Sections III.A and III.B, infra.
By mischaracterizing the Commissioner’s suit here
as a “simple contract and tort action,” Milliman ignores
that the Commissioner’s claims are inextricably tied to
the regulation of insurance companies in Louisiana. But
for Milliman’s negligent feasibility study, LAHC would
have never sold a single policy to Louisiana’s citizens.
But for Milliman’s failure to properly assess the financial
condition of LAHC and adjust its premiums accurately,
LAHC would not have lost more than $20 million in its
first year of operation. The very claims which Milliman
would take to arbitration arise directly out of Louisiana’s
5. Of course, however, the issues of whether §2004 regulates
the business of insurance and/or whether forcing the Commissioner
to submit to arbitration “impairs” state law under the MFA present
federal questions.

16
intense interest in the regulation of Louisiana HMOs like
LAHC. The nexus between the Commissioner’s claims
and the regulation of insurance is far from “attenuated”
as Milliman argues. Rather, the Commissioner’s claims
raise serious public-policy issues integral to Louisiana’s
interests both in regulating the business of insurance
and in ensuring that policyholders, healthcare providers,
and other creditors who did business with LAHC are
protected.
By enacting the RLCA and §2004, Louisiana’s
legislature proclaimed that Louisiana courts would
decide all disputes relating to a failed domestic insurance
company. The problems w ith allow ing a private
arbitration panel to decide these inherently public issues
which impact insurance law and regulation in Louisiana
are numerous. First, if Milliman’s Agreement is enforced
against the Commissioner, the arbitrators’ ruling would
be “confidential”: the public would never know about
Milliman’s role in the collapse of LAHC. Second, any
ruling by the foreign arbitration panel would not be subject
to judicial review; the arbitrators could rule completely in
violation of Louisiana and federal law and no appeal could
be had from their ruling. Third, Milliman will be subject
to only “limited discovery” as determined by the foreign
arbitration panel, and without access to full discovery;
the public and the Commissioner may never learn the full
extent of Milliman’s role in LAHC’s failure. Fourth, if
the Commissioner is forced to arbitrate against Milliman
while simultaneously litigating against numerous other
defendants regarding the failure of LAHC in state court,
the likelihood of inconsistent and incompatible verdicts
is all but certain. Defendants in both proceedings will
undoubtedly point fingers at the respective empty chairs
in their respective rooms, thereby violating Louisiana’s

17
RLCA and prejudicing the rights of policyholders,
healthcare providers, and the public at large.
III. NO COMPELLING SPLIT OF AUTHORITY
REGARDING THE INTERPLAY BETWEEN THE
FAA AND THE MFA EXISTS
A.

Donelon and Ommen Do Not Conf lict—
Rule 10(b)

Although the specific rulings in Donelon and Ommen
are certainly different, the two courts’ analysis of the
federal question presented here are compatible and in
accord with one another and with federal precedent.
The Iowa Supreme Court in Ommen interpreted and
decided that the Iowa Liquidation Act “expressly permits
the liquidator to sue or defend [the insolvent insurance
company] in ‘any necessary forum,’ including ‘arbitration
panels’” and that “[n]owhere in the Iowa Liquidation Act is
it required that the liquidator must bring claims in a public
forum.” Ommen, 941 N.W.2d at 319-20. Because of this
interpretation of Iowa state law, the Iowa Supreme Court
did not reach the issue of whether any Iowa law “regulating
the business of insurance” prohibited arbitration in postreceivership proceeding and reverse preempted the FAA
through the MFA. Like Third Circuit in Suter and the
Ninth Circuit in Bennett (see Section III.B, infra), the
Iowa Supreme Court in Ommen did not decide the federal
question that is inherent in the interplay between the FAA
and the MFA once it has been determined that a state
law enacted for the purpose of regulating the business of
insurance actually conflicts with the FAA.
Louisiana, on the other hand, has decided that its
state regulatory scheme and §2004 does require litigation

18
in a specific public forum (state court). Because Iowa and
Louisiana law are different—as determined by the highest
court in each state—there is no conflict between Donelon
and Ommen. And given that there is no compelling
conflict between Donelon and Ommen, Milliman cannot
point to a decision of a state court of last resort that
conflicts with the decision of the Louisiana Supreme Court
and therefore fails to satisfy Rule 10(b) in this regard.6
Indeed, other state courts of last resort have ruled just
like the Louisiana Supreme Court did in Donelon. See
Section III.D.4, infra.
B. Cases Cited by Milliman Do Not Reflect a Split
of Authority Between Federal Circuit Courts—
Rule 10(a)
Milliman has primarily cited two federal circuit court
cases, Suter v. Munich Reinsurance Co., 223 F.3d 150
(3rd Cir. 2000) and Bennett v. Liberty Nat. Fire Ins. Co.,
968 F.2d 969 (9th Cir. 1992), for the proposition that this
case presents “a recurring and irreconcilable conflict on
the question” of whether a state exclusive venue provision
for post-receivership actions by or against an insurance
receiver is one “regulating the business of insurance.” An
analysis of Suter and Bennett and the other cases cited
by Milliman, however, reveal no such compelling split of
authority worthy of review pursuant to Rule 10(a).
In Suter, the New Jersey liquidator filed suit in
state court against a German reinsurer of an insolvent
insurance company, seeking damages for breach of
6. See fn. 8, infra, for a brief discussion of the Nevada
Supreme Court’s summary ruling in Richardson.

19
certain reinsurance treaties. Because the subject treaties
contained arbitration clauses governed by the United
Nations Convention on the Recognition and Enforcement
of Foreign Arbitral Awards (the “Convention”), the
defendant removed the action to federal court pursuant
to 9 U.S.C. § 205. After removal, the reinsurer moved
the federal court to compel arbitration. The Liquidator
argued, inter alia, that the Convention was reverse
preempted by the New Jersey Liquidation Act under the
MFA.
The Liquidator in Suter based its argument that the
Convention was reversed preempted on N.J. Stat. Ann.
§ 17:30C-2, which provided that, in full: “The Superior
Court shall have original jurisdiction of delinquency
proceedings under this act.” Significantly, this statute
is not identical to or even comparable to the Louisiana
statute at issue in Donelon, § 2004, which requires that
all post-receivership actions—not simply the delinquency
proceeding itself—be consolidated into a single state court.
Unlike Louisiana law, the New Jersey Liquidation Act at
issue in Suter did not mandate that all post-receivership
actions brought by the Commissioner be consolidated into
a single venue.
As such, the Third Circuit easily dismissed the
Liquidator’s argument for reverse preemption through
the MFA by pointing out the “obvious” fact that “This is
not a delinquency proceeding or a proceeding similar to
one.” Id. at 161. Instead, the Third Circuit characterized
the proceeding at issue in Suter as “a suit instituted by
the Liquidator against a reinsurer to enforce contract
rights for an insolvent insurer,” and not a delinquency
proceeding that would have implicated the forum

20
selection provision found in N.J. Stat. Ann. § 17:30C-2.
After finding that this state statute did not apply and
assuming—without discussion—that the provisions of
the New Jersey Liquidation Act raised by the Liquidator
“were enacted for the purpose of regulating the business
of insurance,” the Third Circuit found that there would be
no “impairment” of the New Jersey Liquidation Act if the
Convention’s arbitration clause was ultimately enforced.
Id. at 161. There is nothing controversial about this finding
of Suter; and this ruling is not at odds with Donelon.
In this regard, Suter is comparable with Ommen. Had
Louisiana’s venue provision not mandated consolidation
of all post-receivership actions into a single state court,
like the New Jersey Liquidation Act in Suter or the Iowa
Liquidation Act in Ommen, then the Louisiana Supreme
Court would have probably ruled similarly to Ommen and
Suter and not addressed the federal question involving the
interplay between the FAA and the MFA.
Moreover, the T hi rd Ci rcu it considered and
distinguished the Fifth Circuit’s Munich7 decision by, in
part, acknowledging that “the Oklahoma statute at issue
[in Munich] vested the state court with ‘exclusive original
jurisdiction.’” Id. at 162 (quoting Munich, 141 F.3d at 590).
In other words, according to the Third Circuit’s correct
logic, had the New Jersey Liquidation Act vested the
state court with exclusive jurisdiction, then both Munich
and the argument in favor of reverse preemption of the
Convention through the MFA would have been compelling.
The second pillar of Milliman’s “irreconcilable
conflict” argument rests on the Ninth Circuit’s decision
7. See Section III.D.1, infra, for a discussion of Munich.

21
in Bennett, rendered in 1992 prior to Fabe. In Bennett,
a Montana Liquidator filed suit in state court against
several reinsurers. Defendants removed the suit to federal
court and filed a motion to compel arbitration because the
subject contracts contained broad arbitration provisions.
The Ninth Circuit essentially interpreted the arbitration
agreements in light of the strong federal policy favoring
arbitration and ruled that the arbitration agreements
should be enforced against the Liquidator.
Other than referring to the FAA in passing, the
Ninth Circuit undertook no meaningful analysis of the
FAA or of its interplay with the MFA in Bennett. The
Ninth Circuit did not even cite the MFA independently,
much less analyze it or discuss whether Montana’s postreceivership regulatory scheme constitutes the regulation
of the business of insurance. The only reference to the
MFA made by the Ninth Circuit in Bennett is found
in its discussion of another case, State of Idaho ex rel.
Soward v. United States, 858 F.2d 445 (9th Cir. 1988), cert.
denied, 490 U.S. 1065 (1989), a creditor priority dispute.
In Soward, the Ninth Circuit erroneously ruled that a
state’s priority scheme for the payment of claims “cannot
be described as regulating the “business of insurance,”
and held that the federal priority statute preempted
the state priority scheme. Bennett, 968 F.2d at 973. Of
course, within a year of when Bennett was decided in
the Ninth Circuit, this Court reached the exact opposite
conclusion in Fabe. Obviously, Fabe severely undermines
the analysis employed by the Ninth Circuit in both Soward
and Bennett.
Milliman also discusses several other cases in support
of its Petition. These other cases are even less helpful
to Milliman than Suter and Bennett. In Quackenbush

22
v. Allstate Ins. Co., 121 F.3d 1372 (9th Cir. 1997), a
suit involving reinsurance litigation, the Ninth Circuit
observed:
Under Fabe, there is no question that California’s
insurer-insolvency provisions regulate the
“business of insurance” and are saved from
preemption by the [MFA]. . . . [I]f a California
law prohibited arbitration of disputes involving
an insolvent insurer, then that law would
undoubtedly also be saved from preemption by
the FAA. But no such law exists. In short, this
lawsuit by [the Commissioner] against Allstate
does not provoke a conflict between the [FAA]
and California’s insolvency scheme. Therefore,
the [MFA] simply does not apply.
Id. at 1381-82. Again, if the state law at issue does not
provide for an exclusive venue or mandate consolidation
into a single forum for all post-receivership actions,
then the Ninth Circuit’s observation in Quackenbush is
correct: there is no conflict between state law and the
FAA and a reverse preemption analysis under the MFA
is unnecessary.
Grode v. Mutual Fire, Marine and Inland Ins. Co., 8
F.3d 953 (3rd Cir. 1993) is another Third Circuit decision
that involves comparable facts and the same issues
that were addressed in Suter. Grode deals with issues
involving the Convention, removal, and abstention—not
the interplay between the FAA and the MFA.
AmSouth Bank v. Dale, 386 F.3d 763 (6th Cir. 2004), is
a diversity action in which the Sixth Circuit concluded that
the MFA did not reverse preempt declaratory judgment

23
actions against insolvent insurance companies. Dale did
not involve either the FAA or a state’s statutory scheme
for rehabilitating or liquidating an insolvent insurer. It is
simply inapposite to the issues presented here. 8
C.

The Louisiana Supreme Court’s Analysis of
the Interplay Between the MFA and the FAA
Accords with Fabe—Rule 10(c)

Milliman’s argument that the Louisiana Supreme
Court’s decision in Donelon is “inconsistent with this
Court’s” precedent in Fabe is equally unavailing for Rule
10(c) purposes. Fabe strongly supports Donelon.
Fabe did not involve the interplay between the FAA
and the MFA. No arbitration agreement was at issue in
Fabe. The issue in Fabe was whether, under the MFA,
a federal priority statute was reverse preempted by a
conflicting Ohio priority statute that was part of a “complex
and specialized administrative structure” designed for the
regulation of insurance company insolvency. Fabe, 508
U.S. at 493–94. Examining each priority provision of the
Ohio statute separately, the Court held that the priorities
for administrative costs and policyholder claims displaced
8. Milliman’s reliance on the decisions of related cases
involving the same arbitration agreement in states other than
Louisiana is clearly misplaced. In Richardson v. Eighth JDC,
454 P.3d 1260 (Nev. 2019)(Table), the Nevada Supreme Court did
not address the merits of the underlying dispute. A summary
finding that a lower court did not commit “clear legal error” is
far from an endorsement of Milliman’s position taken here. And
Milliman v. Roof, 353 F.Supp.3d 588 (E.D. Ky. 2018) is a district
court decision by a single judge which was not appealed to the
circuit court; Rule 10 does not include consideration of federal
district court decisions.

24
the federal priority, but that the federal priority trumped
all other claims. Id. at 509. This Court reasoned that the
Ohio statute was enacted for the purpose of regulating
the business of insurance to the extent it regulated
policyholder interests. Id. at 508. But to the extent that
the statute was designed to further the interests of other
creditors, Fabe found that it did not have such a purpose
and found that no reverse preemption under the MFA was
justified as to those specific provisions of state law. Id.
Fabe’s holding and analysis suggests that a state
statute may require parsing to determine the extent of
its preemptive power under the MFA. At the same time,
however, this Court stopped short of directing that this
approach be taken in every case. Id. at 509 n. 8. Any
uncertainty surrounding Fabe, however, does not help
Milliman’s position. Louisiana’ RLCA, taken as a whole,
is a comprehensive statutory scheme that constitutes
“regulating the business of insurance.” Even if this
Court were required to parse Louisiana’s RLCA, the
specific provision of the RLCA at issue here—vesting
the Commissioner authority to select the forum and
mandating consolidation of all post-receivership actions
into a single Louisiana state court—is a law enacted for
the purpose of regulating the business of insurance. To
preserve both the Louisiana RLCA as a whole, and apply
§2004 in particular, it follows that either all private forum
selection clauses, including arbitration, must give way to
Louisiana law, or none do. Although there are certainly
cases that lend themselves to a parsing of a particular
state law to determine its relationship to the concerns
of policyholders, this is not one of them. Again, once it
is determined that either the RLCA as a whole, or §2004
in particular, is a state law enacted for the purpose
of regulating the business of insurance, it necessarily

25
follows that enforcing a private forum selection clause will
improperly “impair, invalidate, or supersede” state law.9
That both policyholders and others are benefited by
the ability the Commissioner to administer receivership
proceedings in a single venue does not alter this analysis.
Because §2004 is “reasonably necessary” to further the
primary goal of protecting policyholders, even though its
application may also benefit other creditors, it remains a
state law that regulates the business of insurance. In this
respect, the provisions of the Louisiana’s RLCA, including
§2004, are comparable to the Ohio provision giving a
preference to post-receivership administrative expenses
considered in Fabe. Therefore, the ruling of the Louisiana
Supreme Court in Donelon that §2004 was enacted for the
purpose of regulating the business of insurance is entirely
in line with Fabe and need not be reviewed by this Court.
D.

Donelon Accords with Federal Circuit Courts
and State Courts of Last Resort Which Have
Addressed the Immediate Issue—Rule 10(b)

Every United States court of appeals that has considered
the federal question presented here has ruled just like
the Louisiana Supreme Court did in Donelon. Milliman’s
suggestion to this Court that Donelon “directly contravenes
unanimous federal circuit authority” is baseless.
1.

Fifth Circuit—Munich v. Crawford

In Munich v. Crawford, 141 F.3d 585 (5th Cir. 1998), cert.
denied, 525 U.S. 1016 (1998), the Fifth Circuit addressed
9. See discussion of Munich at Section III.D.1, infra., and
discussion of Fabe and Donelon at Section II, supra.

26
the same issue decided by the Louisiana Supreme Court
in Donelon: “whether state laws governing insurance
company delinquency proceedings reverse pre-empt
the FAA under the [MFA].” Id. at 587. In Munich, two
reinsurers asserted that their claims relating to a failed
insurance company must be resolved by arbitration
pursuant to their pre-receivership agreements with the
failed insurance company. The Oklahoma Commissioner
maintained that the FAA was reverse preempted by
the MFA given Oklahoma’s post-receivership law that
mandated a single, state court forum to resolve all claims
arising out a failed insurance company.
A fter acknowledg ing that Fabe’s holding and
analysis suggest that a state receivership statute may
require parsing in some cases to determine the scope of
its preemptive effect under the MFA, the Fifth Circuit
determined that no such parsing was necessary in Munich
given Oklahoma’s exclusive venue provision.
[E]ven if we are required to parse [the Oklahoma
Liquidation Act], the specific provisions of the
statute at issue here—vesting exclusive original
jurisdiction of delinquency proceedings in the
Oklahoma state court and authorizing the
court to enjoin any action interfering with the
delinquency proceedings—are laws enacted
clearly for the purpose of regulating the
business of insurance.
Id. at 592-93 (some citations omitted). After recognizing
and discussing all of the problems solved by consolidating
all post-receivership actions into a single forum, the
Fifth Circuit adopted the reasoning of Fabe to support
its holding.

27
The Fifth Circuit further rejected the reinsurer’s
contention that arbitration would not “invalidate, impair,
or supersede” Oklahoma law because the funds at issue
were “never an asset of the insolvent estate.” Id. at 594.
According to the Fifth Circuit, “Regardless of the nature
of the reinsurers’ action, ordering it resolved in a forum
other than the receivership court nevertheless conflicts
with the Oklahoma law giving the state court the power
to enjoin any action interfering with the delinquency
proceeding.” Id. at 595. In other words, whether the
reinsurers were fighting over existing or future assets
that have been or may become a part of the insurance
company’s estate, Oklahoma has an interest in mandating
that all such claims be brought or consolidated into a
single, state law forum. The Fifth Circuit affirmed the
dismissal of the case and held that Oklahoma law reverse
preempted the FAA under the MFA and prohibited the
enforcement of the arbitration agreement against the
Commissioner. Munich is on all fours with Donelon.
2.

Tenth Circuit—Davister v. United Republic

In Davister Corp. v. United Republic, 152 F.3d 1277
(10th Cir. 1998), cert. denied, 525 U.S. 1177 (1999), a
corporation sold stock and transferred real property to
a Utah insurance company prior to receivership. After
Utah’s Commissioner instituted a liquidation proceeding
in state court, the corporation filed suit in federal court in
Utah to compel arbitration pursuant to a pre-receivership
agreement. Specifically, the corporation in Davister
requested relief from a post-receivership stay order issued
by the Utah liquidation court that effectively stayed a
state court proceeding in Texas where the real property
was located.

28
On appeal, the Tenth Circuit rejected the corporation’s
argument that the FAA mandated that its arbitration
agreement be enforced against the Utah Commissioner.
Instead, the Tenth Circuit addressed whether the MFA
reverse preempts the FAA given the facts at issue and,
after analyzing Fabe and Munich, concluded that “[w]e
think it evident the Utah statute [providing for a stay of
all related post-receivership actions] meets the test of
having been enacted for the purpose of regulating the
business of insurance,” and that “the answer is obvious
[that] [a]llowing a putative creditor to pluck from the
entire litigation proceeding one discrete issue and force
arbitration . . . would certainly impair the progress
of the orderly resolution of all matters involving the
insolvent company” and would “[u]nquestionably” impact
policyholders. Id. at 1281 (footnotes and some citations
omitted). The Tenth Circuit’s analysis of Utah’s uniform
stay procedures comports with the Louisiana Supreme
Court’s analysis of Louisiana’s post-receivership venue
procedures at issue in Donelon.
Indeed, the reasoning and result in Davister is even
more compelling here given the source of the arbitration
agreement and the relationship between the parties. In
Davister, a third-party corporation entered into a stock
and real estate deal with the insurance company while it
was still solvent. The pre-receivership transaction at issue
in Davister arguably had relatively little to do with the
business of insurance prior to insolvency. Here, in stark
contrast, the work performed by Milliman for LAHC
prior to receivership was essential to both the business
of insurance and the regulation of insurance. Stated
differently, selling real property to an insurance company
is somewhat attenuated to the business of insurance.

29
However, determining the financial condition of the
insurance company, advising LAHC that it was a viable
insurance company, applying for more than $65 million
in federal start-up and solvency loans, and setting the
premiums charged by LAHC, however, all go to the core
business of insurance. Milliman’s actuarial work in this
case goes to heart of what insurance regulation is aimed
at protecting: that the risk undertaken by policyholders
of an insurance company is reasonable and sound.
3.

Second Circuit—Stephens v. American

In Stephens v. American Int’l Ins. Co., 66 F.3d
41 (2d Cir.1995), which involved facts comparable to
those in Donelon, the Second Circuit held that the
Kentucky Liquidation Act reverse preempted the FAA by
operation of the MFA. Id. at 45. Kentucky had enacted
a comprehensive scheme for the liquidation of insolvent
insurance companies, including a provision nullifying
the effect of arbitration clauses against the receiver.
The appellees, reinsurance companies seeking to compel
arbitration regarding their rights of setoff under the
reinsurance agreements, argued that the anti-arbitration
provision was not enacted to protect policyholders and
deprived them of their bargained-for right to arbitration.
Id. The Second Circuit refused to limit its focus to the antiarbitration provision, but instead, examined the Kentucky
Liquidation Act as a whole. It concluded that Kentucky’s
Liquidation Act protected policyholders “by assuring that
an insolvent insurer will be liquidated in an orderly and
predictable manner and the anti-arbitration provision is
simply one piece of that mechanism.” Id.

30
4.

Other Favorable State Court Cases

Other state court cases which have address the
immediate issue have ruled just like the Louisiana
Supreme Court did in Donelon. See Ernst & Young, LLP
v. Clark, 323 S.W.3d 682 (Ky. 2010), cert. denied, 562 U.S.
1218 (2011); Taylor v. Ernst & Young, LLP, 958 N.E.2d
1203 (Ohio 2011); Knickerbocker Agency, Inc. v. Holz, 149
N.E.2d 885, 889-891 (N.Y. Ct. App. 1958).
IV. OTHER ADEQUATE A ND INDEPENDENT
STATE LAW GROUNDS EXIST TO AFFIRM THE
ULTIMATE RULING IN DONELON
The Louisiana Supreme Court focused its opinion in
Donelon on the MFA reverse preemption issue; however,
the court acknowledged that other state law issues that
the Commissioner had briefed and argued below may
also provide an alternative basis for finding Milliman’s
arbitration agreement unenforceable. Although the
Louisiana Supreme Court did not address these other
state law issues in Donelon,10 nothing prevents it from
doing so if this Court were to grant certiorari, reverse the
Louisiana Supreme Court’s ruling regarding MFA reverse
preemption, and remand for further proceedings. In other
10. Bec ause §2 0 0 4 proh ibit ed en forcement of t he
arbitration clause under the MFA, the Louisiana Supreme Court
understandably reasoned that it was unnecessary to address
or resolve the Commissioner’s other arguments regarding
why, according to state law, Milliman’s arbitration clause is
unenforceable. “Consequently, the parties’ intent is not relevant
and we pretermit any analysis of the allegedly conf licting
provisions in the agreement. Similarly, we find it unnecessary to
address the doctrine of direct benefits estoppel and its effect on
the Commissioner as a non-signatory to the agreement.” Donelon,
App. 12a-13a.

31
words, because this Court’s ruling will not resolve all
underlying state law issues involving the determination of
whether Milliman’s arbitration agreement is enforceable
against the Commissioner, this Court should decline
review.
A.

The Risk of Rendering an Advisory Opinion

As has been repeatedly observed, this Court should
not review judgments of state courts that could rest on
adequate and independent state grounds, because “if the
same judgment would be rendered by the state court after
we corrected its views of federal laws, our review could
amount to nothing more than an advisory opinion.” Herb
v. Pitcairn, 324 U.S. 117, 126 (1945); Michigan v. Long, 463
U.S. 1032, 1041-42 (1983). While the Commissioner does
not question this Court’s jurisdiction–because the “plain
statement” requirement of Michigan v. Long appears
lacking in the Louisiana Supreme Court’s ruling—
Respondent respectfully suggests that it behooves this
Court to decline Milliman’s invitation to render an
advisory opinion here.
As Milliman itself has argued to this Court in its
opposition brief filed in Ommen: “Even if this Court were
to conclude that there is sufficient ambiguity concerning
the roles of state and federal law in the [State] Supreme
Court’s decision for this Court to have jurisdiction to
review it, the high likelihood is that, upon any remand,
the [State] Supreme Court would reaffirm the same result
as a matter of state law.” Ommen, No. 20-249, Milliman’s
Opposition Brief, p. 14 n. 4 (emphasis in original). Here,
if this Court were to grant writs in Donelon, its decision
would be an advisory opinion, given that an application of

32
state contractual law also leads to the inevitable conclusion
that Milliman’s arbitration provision cannot be enforced
against the Commissioner.
B. According to State Law, the Direct Benefit
Estoppel Doctr ine Does Not Bind the
Commissioner, a Non-Signatory, to Milliman’s
Arbitration Contract
Whether an arbitration contract should be enforced
against a non-signatory to that contract is a matter of
state law. “Despite [the FAA] policy favoring enforcement
of arbitration agreements, the Supreme Court has also
recognized that, under the savings clause in § 2, general
state contract principles still apply to assess whether
those agreements to arbitrate are valid and enforceable,
just as they would to any other contract dispute arising
under state law.” Duhon v. Activelaf, LLC, 2016-0818 *6
(La. 10/19/2016); --So.3d.--; 2016 WL 6123820, cert. denied,
137 S.Ct. 2268 (2017)(Mem)(citing Casarotto, 517 U.S. at
686-87). The Commissioner’s defense here (i.e., that he
is not a signatory to the underlying arbitration contract)
is comparable to the other, well-recognized contractual
defenses available to him under state law; e.g., lack of
consideration, cause, duress, or fraud. Such questions
regarding the enforceability of a contract are entirely
controlled by state law. See Doctor’s Associates, Inc. v.
Casarotto, 517 U.S. 681, 686-87 (1996). Federal law is
not involved in determining whether the direct benefit
estoppel doctrine applies here to bind the Commissioner
as a non-signatory.
Louisiana courts have specifically recognized that
the Commissioner, in his capacity as rehabilitator, does

33
not simply “stand in the shoes” of the insurer, but that his
responsibilities include protection of the general public
and the policyholders and creditors as well as the insurer
itself. See, e.g., LeBlanc v. Bernard, 554 So.2d 1378,
1381(La. App. 1st Cir.1989), writ denied, 559 So.2d 1357
(La.1990). Because the Commissioner does not simply
“stand in the shoes” of LAHC, the direct-benefit estoppel
doctrine is inapplicable against the Commissioner, a nonsignatory, as a matter of state law.
In a case that is both factually and legally analogous
to the immediate one, Taylor v. Ernst & Young, LLP,
958 N.E.2d 1203 (Ohio 2011), the Ohio Supreme Court
concluded that a pre-receivership arbitration agreement
executed by an insurer is not subsequently enforceable
against an insurance commissioner, recognizing that the
commissioner’s important role in protecting the public
interest means that he or she does not stand precisely in
the shoes of the insurer. The court in Taylor relied upon
this Court’s reasoning in E.E.O.C. v. Waffle House, Inc.,
534 U.S. 279, 294 (2002). In Waffle House, this Court held
that when the EEOC brought an enforcement action in
its own name, both in the public interest and on behalf
of a complaining employee, the EEOC was not bound
by an arbitration provision contained in that employee’s
employment agreement. Id. at 297–98. This Court ruled
that because of the EEOC’s broad enforcement authority,
it was not required to arbitrate even the claims for “victimspecific” relief, even though the victim had agreed to
arbitrate such claims. Id.
The Commissioner here, just like the EEOC in Waffle
House, is pursuing claims on behalf of policyholders,
creditors, and other impacted parties, based upon

34
Milliman’s alleged professional malpractice in generating
financial reports that it knew would be submitted to, and
relied upon by, LAHC and regulators. In short, according
to state law, the Commissioner’s claims are not entirely
derivative of LAHC’s claims and the direct benefit
estoppel doctrine does not bind the Commissioner to the
arbitration agreement as a non-signatory.
C.

According to State Law, by Choosing New
York Law Regarding the Enforcement of
their Agreement, Milliman and LAHC Agreed
Not to Arbitrate Post-Receivership Disputes
Involving the Commissioner

A court faced with a contract that contains both an
arbitration agreement and a choice-of-law provision,
must determine the intent of the parties by construing
the specific language and context involved to determine,
according to state law, the scope of the parties’ agreement.
Milliman and LAHC agreed in Section 5 of their
Ag reement that New York law would govern the
“construction, interpretation, and enforcement of this
Agreement.” By agreeing to have New York law control
the “enforcement” of their Agreement, LAHC and
Milliman agreed not to subject post-receivership disputes
involving the Commissioner to arbitration. Under New
York and federal law, courts must assume during the
arbitrability analysis that, as part of making a choice of
law on “enforcement” of the contract, the parties intended
to adopt provisions of the law selected into the contract
unless the contract states otherwise. See Smith Barney,
Harris Upham & Co., Inc. v. Luckie, 647 N.E.2d 1308,
(N.Y. Ct. App. 1995), cert denied, 516 U.S. 811 (1995);
Diamond Waterproofing Systems, Inc. v. 55 Liberty

35
Owners Corp., 826 N.E.2d 802, 806 (N.Y. Ct. App. 2005);
N.J.R. Associates v. Tausend, 973 N.E.2d 730 (N.Y. Ct.
App. 2012); Mastrobuono v. Shearson Lehman Hutton,
Inc., 514 U.S. 52, 59 (1995). Here, by applying state-law
contract principles, there is no need to consider whether
the FAA is reverse preempted under the MFA. Federal
law is not involved in determining the scope of the parties’
agreement. Simply stated, if the Louisiana Supreme
Court addresses this threshold issue of contractual
interpretation under state law, it will likely conclude that
LAHC and Milliman did not agree to arbitrate this postreceivership dispute involving the Commissioner.
CONCLUSION
Respondent respectfully requests that this Honorable
Court deny the Petition.
Respectfully submitted,
J. E. Cullens, Jr.,
Counsel of Record
A ndrée Matherne Cullens
Darrel J. Papillion
S. Layne Lee,
La. Bar #17689
Walters, Papillion, Thomas,
Cullens, LLC
12345 Perkins Road
Baton Rouge, LA 70810
(225) 236-3636
cullens@lawbr.net
Counsel for Respondent
January 27, 2021

